No. 20-____.

In the Supreme Court of the United States.
____________________
Assassination Archives and Research Center,
Petitioner,
-vCentral Intelligence Agency,
Respondent.
_____________________
On Petition for Writ of Certiorari to the United States Court of Appeals for the District of
Columbia Circuit
_____________________
MOTION FOR AN EXTENSION OF TIME
IN WHICH TO FILE PETITION FOR WRIT OF CERTIORARI
____________________
Daniel S. Alcorn
D.C. Bar No. 383267
Counsel of Record for Petitioner
1335 Ballantrae Lane
McLean, Virginia 22101
(703)442-0704
dalcorn@rcn.com
James H. Lesar #114413
Counsel for Petitioner
930 Wayne Avenue, Unit 1111
Silver Spring, Maryland 20910
(301)328-5920
jhlesar@gmail.com

1

CORPORATE DISCLOSURE STATEMENT
As a preliminary matter, Petitioner Assassination Archives and Research Center, Inc.
(“AARC”) is a non-stock, non-profit Virginia corporation dedicated to the collection and
dissemination of materials related to political assassinations. AARC has no parent or subsidiary
entities. As noted, as a non-stock, non-profit entity, AARC does not issue stock or other form of
ownership.
MOTION FOR AN EXTENSION OF TIME IN WHICH
TO FILE A PETITION FOR A WRIT OF CERTIORARI
To the Honorable Chief Justice, John G. Roberts, Jr., of the Supreme Court of the
United States assigned to the District of Columbia Circuit:
Petitioner, Assassination Archives and Research Center (“AARC”), by counsel, hereby
applies for an Order from Chief Justice John G. Roberts, Jr., pursuant to S.Ct. Rule 13.5 for an
extension of time of 60 days within which to file a petition in this Court for a writ of certiorari to
the United States Court of Appeals for the District of Columbia Circuit. The United States
Circuit Court of Appeals for the District of Columbia entered judgment Per Curiam against
Petitioner on October 11, 2019 in Appeal No. 18-5280 (Appendix A), and its orders denying
Petitioner’s petition for rehearing or rehearing en banc were entered Per Curiam on December
10, 2019, (App. B). The time Petitioner has to file a petition for a writ of certiorari will expire
on March 9, 2020, unless this motion is granted. This motion to extend the time for Petitioner to
file its petition is not filed more than 10 days prior to the date when the petition for a writ of
certiorari is due pursuant to 28 U.S.C. § 2101(c) and S. Ct. Rule 13 due to a new development
explained herein- that this Court announced a grant of a writ of certiorari in another case on
March 2, 2020 presenting an issue similar to one in Petitioner’s case in which the results of the

2

two cases are in conflict. This Court has jurisdiction over the judgment of the Court of Appeals
under 28 U.S.C. § 1254(1).
Petitioner seeks the extension of time to consider this Court’s grant of a writ of certiorari
announced on March 2, 2020 in the case #19-547, Fish and Wildlife Serv., et al. v. Sierra Club,
Inc.. The Fish and Wildlife Service case presents the issue of compelled release under the
Freedom of Information Act (“FOIA”), 5 U.S.C. 552(a), of draft documents for which a
deliberative process privilege was asserted by the government pursuant to FOIA exemption b(5).
Petitioner AARC’s case involves the Central Intelligence Agency’s successful assertion of the
b(5) deliberative process privilege for information reflecting CIA’s preliminary search activities
in response to Petitioner’s FOIA request. The Court of Appeals discusses the b(5) exemption at
pages 2 and 3 of its October 11, 2019 Judgment (App. A) in upholding CIA’s assertion of the
deliberative process privilege. Petitioner wishes to consider whether to bring a petition for a writ
of certiorari in light of this Court granting certiorari in the Fish and Wildlife Service case. The
timing of the announcement of the grant of the writ of certiorari in the Fish and Wildlife Service
case on March 2, 2020 creates a practical impossibility for Petitioner to consider and prepare a
petition for a writ of certiorari before the March 9 deadline.1
BACKGROUND
Appellant AARC is a non-profit, non-stock corporation, organized in 1984 for the purposes
of collecting, preserving and making available to the public research materials relating to

1

Petitioner also wishes to consider the decision by Judge Walton in the district court handed
down March 5, 2020 requiring in camera inspection of the Mueller Report as part of de novo
review under FOIA. EPIC v. DoJ, Civil Act. Nos. 19-810 and 19-957, U.S. District Court for
the District of Columbia; and the decision by Judge Lamberth handed down March 2, 2020
granting a FOIA plaintiff discovery including depositions in Judicial Watch v. Dept. of State,
Civil No. 14-1242, U.S. District Court for the District of Columbia.
3

political assassinations and related subjects, and conducting research in the field. As part of its
research and public information functions, AARC uses government records made available to it
under the Freedom of Information Act (“FOIA”). AARC’s archive contains the largest
collection of materials on the assassination of President John F. Kennedy in private hands.2 R.1,
p. 2. (“R.” refers to the docket entries in this case, Civil No. 17-0160 in the District Court for the
District of Columbia.)
The Freedom of Information Act requests at issue in this case seek additional new
information related to the events surrounding the assassination of President Kennedy on
November 22, 1963. In 2012 Appellant AARC became aware of a formerly Top Secret
document released under the President John F. Kennedy Assassination Records Collection Act,
44 U.S.C. § 2107 note, containing important new information. This document consisted of a
memorandum of a briefing of the Joint Chiefs of Staff by the head of Central Intelligence
Agency (“CIA”) Cuban operations Desmond Fitzgerald on September 25, 1963. During this
briefing, Mr. Fitzgerald informed the Joint Chiefs that CIA was attempting to recruit individuals
in the Cuban military to join in an effort to overthrow the Castro regime. Mr. Fitzgerald stated
that CIA saw a parallel in history, the plot to assassinate Adolf Hitler during World War II, and
that the Hitler plot was being studied by CIA in detail to develop an approach to dealing with
Castro. R. 1-1, page 7, para. 13.
Former CIA Director Allen Dulles wrote extensively about the July 20, 1944 plot to kill
Hitler in his book Germany’s Underground, the Anti-Nazi Resistance, 1947, 2000 Da Capo
Press, pp. 1-11. Dulles had personal involvement with the July 20 plotters from his position in

2

AARC does not espouse or support any particular theory about the assassination of President
Kennedy.
4

Bern, Switzerland as a principal officer of the Office of Strategic Services (“OSS”), forerunner
of the CIA. Id. at xi-xii.3 Dulles served as CIA Director in the Kennedy administration until the
failure of the Bay of Pigs investigation after which Kennedy replaced Dulles. Dulles served as
an active member of the Warren Commission that investigated President Kennedy’s
assassination.
Despite Dulles’ membership on the Warren Commission and personal knowledge of the facts
of CIA plots to assassinate Castro from his service as CIA Director, information concerning CIA
plots to assassinate and overthrow Fidel Castro was withheld from the Warren Commission that
investigated President Kennedy’s murder. R. 8-5 (President Gerald Ford foreword). Although
subsequent investigations of President Kennedy’s assassination included plots to assassinate and
overthrow Castro, information was not provided about CIA’s detailed study of the plot to
assassinate Hitler. R. 8-3 (Church Committee excerpt); R.8-4 (CIA Inspector General’s Report
on plots to assassinate Castro); R. 26-1, Politico article on Castro plots; R.30-3 (Church
Committee excerpt). Information about U.S. plots to assassinate Castro was believed significant
because of the possibility of retaliation against U.S. leaders, or that these plots themselves may
have been turned against President Kennedy.
To AARC’s knowledge, this additional information about studying the 1944 plot to kill Hitler
to develop an approach to overthrow Castro is new information that has not been previously

3

The plot to assassinate Hitler was attempted unsuccessfully on July 20, 1944, and is known as
the “July 20 plot” or “Valkyrie plot”. Valkyrie was the codename for a Nazi Germany secret
plan to suppress internal rebellion by foreign workers. The July 20 plot planners attempted to
use the Valkyrie operation to overthrow Hitler’s regime, however Hitler was only slightly
wounded and quickly reasserted his authority. Dulles, Allen Welsh, Germany’s Underground,
Da Capo Press (2000), p. 1; Casey, William, The Secret War Against Hitler, The Berkley
Publishing Group, (1989), p. 138. As noted, Allen Dulles was a Director of the CIA and a
member of the Warren Commission that investigated President Kennedy’s assassination.
5

investigated by U.S. government agencies. Through its FOIA requests, AARC is attempting to
find and reveal additional information about this episode to fill out the public record. The Court
of Appeals has properly recognized the high public interest in the subject of the Kennedy
assassination, stating, “(w)here that subject is the Kennedy assassination — an event with few
rivals in national trauma and in the array of passionately held conflicting explanations —
showing potential public value is relatively easy.” Morley v. Central Intelligence Agency
(“Morley IX”), 810 F.3d 841,844 (D.C.Cir. 2016). This case involves factual material at the
heart of the unresolved issue as to whether the plots to assassinate Castro may have precipitated
the assassination of the President.
WHEREFORE Petitioner Assassination Archives and Research Center hereby applies under
Rule 13.5 for an Order from Chief Justice John G. Roberts, Jr., for an extension of time of 60
days within which to file a petition in this Court for a writ of certiorari to the United States
Court of Appeals for the District of Columbia Circuit.

________/s/___________________
Daniel S. Alcorn
D.C. Bar No. 383267
Counsel of Record for Petitioner
1335 Ballantrae Lane
McLean, Virginia 22101
(703)442-0704
dalcorn@rcn.com

James H. Lesar #114413
Counsel for Petitioner
930 Wayne Avenue, Unit 1111
Silver Spring, Maryland 20910
(301)328-5920
jhlesar@gmail.com

6

APPENDIX A

USCA Case #18-5280

Document #1810465

Filed: 10/11/2019

Page 1 of 4

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 18-5280

October Term, 2019
FILED: OCTOBER 11, 2019

ASSASSINATION ARCHIVES AND RESEARCH CENTER,
APPELLANT
v.
CENTRAL INTELLIGENCE AGENCY,
APPELLEE
Appeal from the United States District Court
for the District of Columbia
(No. 1:17-cv-00160)
Before: PILLARD and RAO, Circuit Judges, and WILLIAMS, Senior Circuit Judge.
JUDGMENT
This appeal was considered on the record and on the briefs and oral arguments of the
parties. After according the issues full consideration, the Court is satisfied that appropriate
disposition of the appeal does not warrant a published opinion. See Fed. R. App. P. 36; D.C. Cir.
R. 36(d). For the reasons stated below, it is hereby
ORDERED and ADJUDGED that the denial of the motion for summary judgment and
grant of the cross-motion for summary judgment be AFFIRMED.
In this Freedom of Information Act (FOIA) case, the Assassination Archives and Research
Center (the Center) appeals an order of the district court denying the Center’s motion for summary
judgment and granting a cross-motion for summary judgment by the Central Intelligence Agency
(CIA). At issue is whether, in response to FOIA requests by the Center, the CIA permissibly
withheld pursuant to FOIA Exemption 5, 5 U.S.C. § 552(b)(5), portions of intra-agency
communications relating to the FOIA process itself.
On August 25, 2012, the Center submitted to the CIA a request for all records “pertaining
to the CIA’s study in 1963 of plots to assassinate Adolph Hitler” or “to communications by Allen
1

USCA Case #18-5280

Document #1810465

Filed: 10/11/2019

Page 2 of 4

Dulles regarding plots to assassinate Adolph Hitler” during Dulles’s service in the CIA and a
related office. After the CIA returned a determination that it had no responsive records, the Center
submitted a supplementary request. In addition to somewhat expanding the scope of the previous
request, the Center’s second letter requested “[a]ll index entries or other records reflecting the
search for records responsive to this request in its original or amended form, including all search
[terms] used with each of the components searched.”
As set forth in declarations from CIA Information Review Officer Antoinette Shiner, who
was involved in responding to the Center’s amended FOIA request, CIA staff searched for
responsive records in the files of eight different CIA sub-offices that the agency identified as “the
locations reasonably expected to contain” the requested materials. Shiner Decl. (Jan. 19, 2018) at
2. Those offices were: “the Directorate of Analysis . . . ; Directorate of Operations . . . , including
its operational files; the Office of the Director, the Director’s Action Center, the Office of the
General Counsel, the Office of Congressional Affairs, the Center for the Study of Intelligence
(which is part of the CIA’s Talent Center) and the CIA’s history staff office.” Id. at 2-3. Within
each office, CIA staff searched “all relevant office databases, Agency share drives, and archival
records.” Id. at 3. In carrying out each search, CIA staff used a wide variety of terms, including
but not limited to “Hitler Assassination,” “Hitler Plot,” “1963 assassination study,” and “Dulles
communication Hitler.” Id. at 4-5; Shiner Decl. (Oct. 13, 2017) at 3. Each of those terms was
searched both as a complete phrase and as separate terms. For example, a search for “Hitler
Assassination” would have returned all documents containing that exact phrase as well as all
documents containing both “Hitler” and “assassination” somewhere in its body. Shiner Decl. (Jan.
19, 2018) at 5. Staff then reviewed each document uncovered by the searches and determined
whether it was responsive to the Center’s particular request. Id.
In addition to directing those searches, Shiner also consulted with the CIA’s Chief
Historian, who is “very knowledgeable about the Agency’s holdings with respect to” the subject
matter at issue here. Id. at 3. The Chief Historian “personally conducted searches of history staff
files for any reference to studies of anti-Hitler plots dating from the 1963 time frame,” but did not
uncover any additional responsive documents. Id. at 3-4. The Chief Historian advised that, “due
to the age of the subject matter and narrow scope of [the] request focusing on anti-Hitler plots,
there would not be many responsive documents and anything related to assassination studies would
likely be found at the National Archives.” Id. at 4. Based on our review of the redacted records,
the declarations, and the CIA’s Vaughn index, we granted summary affirmance to the CIA as to
the adequacy of the CIA’s search and the propriety of its application of FOIA Exemptions 1, 3,
and 6, some of which were not contested. Assassination Archives & Research Ctr. v. CIA, No.
18-5280, 2019 WL 691517 (D.C. Cir. Feb. 15, 2019).
The only remaining issue is the permissibility of the Exemption 5 redactions to five records
the CIA produced, which appear to be CIA internal forms used in processing the Center’s FOIA
requests and produced pursuant to the Center’s request for records of the FOIA search process
itself. The Center challenges the CIA’s use of the deliberative privilege on the grounds that the
information at issue is purely factual, reporting what the CIA found in its searches. Oral Arg. Rec.
at 10:39-11:01; Appellant Br. 21-23. The CIA, in turn, argues that the withheld materials would
2

USCA Case #18-5280

Document #1810465

Filed: 10/11/2019

Page 3 of 4

reveal the decision-making process behind its final response to the Center’s FOIA request.
Appellee Br. 7-17.
We now hold that the CIA has permissibly invoked Exemption 5. Under FOIA Exemption
5, agencies need not turn over “inter-agency or intra-agency memorandums or letters that would
not be available by law to a party other than an agency in litigation with the agency,” 5 U.S.C.
§ 552(b)(5)—e.g., records protected by the Executive’s deliberative process privilege. See EPA v.
Mink, 410 U.S. 73, 85-90 (1973). The privilege covers information that is both “predecisional”
and “deliberative.” Coastal States Gas Corp. v. Dep’t of Energy, 617 F.2d 854, 866 (D.C. Cir.
1980). Documents are predecisional if they were “generated before the adoption of an agency
policy,” and deliberative if they “reflect[] the give-and-take of the consultative process.” Id.
Here, the CIA invokes Exemption 5 to shield portions of the five internal FOIA task forms
mentioned above. Specifically, the CIA has redacted from each form the substance of the intraagency communication “[a]uthored by [the] Agency component employee tasked with the search”
for the benefit of the agency official directing the CIA’s internal records search. J.A. 217-219,
296-305.
The withheld communications indisputably precede the CIA’s decision to release records
to the Center. In addition, the redacted content “reflects the give-and-take” of a “consultative
process” through which the agency sought to identify records within its possession potentially
responsive to the Center’s requests. Id. 189-90, 354, 357. We have previously held the privilege
applicable to “factual material . . . assembled through an exercise of judgment in extracting
pertinent material from a vast number of documents for the benefit of an official called upon to
take discretionary action,” Mapother v. Dep’t of Justice, 3 F.3d 1533, 1539 (D.C. Cir. 1993), and
we have described a “recommendation to a supervisor on a matter pending before the supervisor”
as “a classic example of a deliberative document,” Abtew v. U.S. Dep’t of Homeland Sec., 808
F.3d 895, 899 (D.C. Cir. 2015). Taken together, the entries in the agency’s Vaughn index, the
declarations, the forms themselves, and the context in which they are used make it sufficiently
apparent that the redacted text describes the efforts of staff “in extracting pertinent material” and
any issues they encountered along the way. In context, it is evident that the redacted matter
amounted to predecisional communications from staff made for the purpose of informing the
agency’s ultimate decision as to what the law required of the Agency in response to the Center’s
FOIA request. See 5 U.S.C. § 552(a).
It suffices that the redactions on the FOIA forms reflect some predecisional agency giveand-take; the Center does not challenge the CIA’s segregation efforts. See Appellant Br.; Appellee
Mot. Summ. Affirmance 4 n.3. We therefore affirm the district court’s grant of summary judgment
to the CIA and denial of summary judgment to the Center on the issue of the CIA’s withholdings
under Exemption 5.
Pursuant to D.C. Circuit Rule 36, this disposition will not be published. The Clerk is
directed to withhold issuance of the mandate herein until seven days after resolution of any timely
petition for rehearing or petition for hearing en banc. See Fed. R. App. P. 41(b); D.C. Cir. R. 41.
3

USCA Case #18-5280

Document #1810465

Filed: 10/11/2019

Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Daniel J. Reidy
Deputy Clerk

4

Page 4 of 4

APPENDIX B

USCA Case #18-5280

Document #1819564

Filed: 12/10/2019

Page 1 of 1

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 18-5280

September Term, 2019
1:17-cv-00160-TNM-GMH
Filed On: December 10, 2019

Assassination Archives and Research Center,
Appellant
v.
Central Intelligence Agency,
Appellee

BEFORE:

Garland, Chief Judge; Henderson, Rogers, Tatel, Griffith,
Srinivasan, Millett, Pillard, Wilkins, Katsas, and Rao, Circuit Judges;
Williams, Senior Circuit Judge
ORDER

Upon consideration of appellant’s petition for rehearing en banc, and the
absence of a request by any member of the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam

BY:

FOR THE COURT:
Mark J. Langer, Clerk
/s/
Michael C. McGrail
Deputy Clerk

USCA Case #18-5280

Document #1819565

Filed: 12/10/2019

Page 1 of 1

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 18-5280

September Term, 2019
1:17-cv-00160-TNM-GMH
Filed On: December 10, 2019

Assassination Archives and Research Center,
Appellant
v.
Central Intelligence Agency,
Appellee

BEFORE:

Pillard and Rao, Circuit Judges; Williams, Senior Circuit Judge

ORDER
Upon consideration of appellant’s petition for panel rehearing filed on November
25, 2019, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Michael C. McGrail
Deputy Clerk

